           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


         CONSENT BASED
     SOCIAL SECURITY NUMBER
      VERIFICATION PROGRAM

    JULY 2009    A-03-08-18067




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                            SOCIAL SECURITY
MEMORANDUM

Date:      July 10, 2009                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Consent Based Social Security Number Verification Program (A-03-08-18067)


           OBJECTIVE

           To assess the results to date of the pilot and interim consent- and fee-based verification
           programs and determine lessons learned that could be applied to the Consent Based
           Social Security Number Verification (CBSV) program.

           BACKGROUND
           Since October 2002, the Social Security Administration (SSA) has assisted companies
           that provide identity verification services for mortgage companies and financial
           institutions by verifying that the name and Social Security number (SSN) provided
           match or do not match SSA’s records. To provide registered companies a vehicle for
           purchasing SSN verifications, the Agency developed a centralized, automated process
           that could quickly respond to verification requests. This process reduces the burden on
           field office resources to process the many verification requests. Since its inception,
           there have been three iterations of the program. The initial program was the Agency’s
           pilot consent- and fee-based SSN verification program, Social Security Number
           Verification Pilot for Private Businesses (Pilot), which began in October 2002 and ended
           in February 2005. It was replaced with the Interim Verification Process (IVP) in March
           2005, and this program ended in November 2008. IVP was replaced in November
           2008 with the current CBSV program.

              Pilot. SSA required that participating companies sign a User Agreement 1 with the
           Agency and obtain written consent 2 from the individual for whom verification would be
           requested before requesting verification from SSA. Four companies participated in the


           1
            The User Agreement established the conditions, terms, and safeguards for SSA to provide verification of
           SSNs to registered companies.
           2
            The Privacy Act of 1974, 5 U.S.C. § 552a established the legal authority for SSA to provide SSN
           verifications to third-party requesters based on consent.
Page 2 - The Commissioner

Pilot and were required to pay a fee of $40,000 to assist with the Agency’s start-up
costs, as well as pay advanced transaction fees--$.26 per verification and $.0047 per
record—for their total estimated annual verification requests.

    IVP. SSA required that participating companies sign a User Agreement and obtain
written consent from the individual before requesting verification through SSA. From
Fiscal Years (FY) 2005 through 2007, the IVP program required manual submission of
verification requests with consent forms via Compact Disc-Read Only Memory (CD),
and charged companies a one-time registration fee of $77 and a transaction fee of
$157 per CD submission to process verification requests. In FY 2008, the IVP program
required electronic submission of verification requests, and charged each company a
one-time registration fee of $381 and a transaction fee of $157 per electronic file
submission. There were 11 companies (including the 4 Pilot companies) registered for
this program.

    CBSV. In November 2008, SSA replaced the IVP program with the CBSV program.
However, unlike the previous programs, the CBSV program is available to all private
businesses and Federal, State, and local government agencies. For CBSV,
participating companies are also required to sign a User Agreement; pay a one-time,
non-refundable registration fee of $5,000; and pay an advance transaction fee of
$.56 per verification request. 3 Further, participating companies are required to obtain
written consent from the individual (or the individual’s legal guardian) before verifying
the individual’s SSN through CBSV. As of February 2009, 86 companies had enrolled
                           4
to use the CBSV program.

For the purpose of this review, we focused on SSA’s controls to test compliance with
the requirements for consent, controls to ensure that companies complied with User
Agreement requirements, and matching criteria used to ensure appropriate responses
were provided to participating companies. We have elected to focus on these core
issues because of the relevant importance to ensuring that only authorized access to
this information is granted.

RESULTS OF REVIEW

While we found that SSA generally applied best practices learned from its Pilot and IVP
programs to the CBSV, we believe improvements are still needed for the CBSV
program. Specifically, our review found that SSA’s Pilot, IVP, and CBSV programs had
adequate controls to test compliance with the consent requirement for verifications. For
example, for the Pilot and CBSV programs, participating companies were required to
hire independent certified public accountants (CPA) to ensure the companies obtained

3
  The Agency periodically revised its fee for verification requests. In August 2007, the fee was $.27 per
verification request, and when the program was implemented in December 2007, SSA increased the fee
to $.32. In April 2008, SSA increased the fee to $0.56 per verification request.
4
    See Appendix C for more details about the Pilot, IVP, and CBSV programs.
Page 3 - The Commissioner

a valid consent before submitting the verification request to SSA. For the IVP program,
the Agency conducted random sample tests on consent forms to ensure compliance
with requirements before processing the verification requests.

We are, however, concerned about the Agency’s original estimates for the CBSV
program. The first year program estimates for CBSV were not in line with the actual
number of companies participating in the CBSV program and the related number of
verification requests submitted to SSA. As of August 2007, SSA anticipated it would
receive about $5.6 million based on 90 participating companies submitting about
10 million transactions. These anticipated funds were expected to cover SSA’s costs
for developing the CBSV program and other related program costs. However, as of
February 2009, SSA was scheduled to receive approximately $1.1 million from
86 participating companies, to process about 1.1 million verification requests.
Moreover, as of April 2009, SSA’s total cost for developing the CBSV program had
increased to about $7.8 million. Thus, SSA would not recoup $6.7 million of its costs
during the first year of the program. The Agency expects to recoup the remaining costs
by collecting transaction fees over the depreciable life (3 years). However, this raises
concerns regarding the Agency’s ability to recoup its costs because of lower than
expected participation.

Additionally, we determined that SSA did not comply with its policy requiring proof of
parental and legal guardianship for individuals signing consent forms for SSN
verification on behalf of minors and incompetent adults for the CBSV program.
Moreover, SSA’s requirements for the compliance reviews conducted by an
independent CPA were not specific enough to ensure uniformity in reporting of results.
Finally, SSA did not require the date of birth (DoB) as part of the matching criteria for
the CBSV program, which could lead to SSA providing false positive responses to
participating companies, as well as increasing the risk that SSA will not detect instances
of SSN misuse.

CBSV PARTICIPATING COMPANIES AND TRANSACTIONS FEES

The number of companies participating in the CBSV program and the number of
verification requests that would be processed by SSA during the first year were not in
line with the Agency’s estimate. As of August 2007, SSA anticipated it would receive
about $5.6 million, based on 90 participating companies submitting about 10 million
transactions, to cover its costs for the development of the CBSV program and other
related program costs. However, as of February 2009, SSA was scheduled to receive
approximately $1.1 million from the 86 actual participating companies to process about
1.1 million verification requests. Moreover, as of April 2009, SSA’s total cost for
developing the CBSV program had increased to about $7.8 million. This raises
concerns regarding the Agency’s ability to recoup its costs for system development and
other related program costs because of lower than expected participation.
Page 4 - The Commissioner

CBSV Participating Companies
                               5
In the 2007 Federal Register notice for the CBSV program, SSA estimated that
90 companies would participate in the CBSV program. Initially, to determine whether
there was sufficient interest in CBSV to support proceeding with program development,
the Agency established an enrollment period of December 2007 through June 2008.
During this period, 94 companies enrolled to use the program and paid the
$5,000 enrollment fee, 6 but 12 of these companies withdrew from the program. SSA
refunded the $5,000 registration fee to 6 of the 12 companies because the companies
canceled their enrollment before the Agency’s revised deadline for cancellation. 7 SSA
did not refund the $5,000 registration fee for the other six companies because they did
not opt out by the deadline. SSA considered these six companies “inactive,” but should
they pursue CBSV in the future, they will not be required to pay another enrollment fee.
In November 2008, the date of implementation, there were 82 companies enrolled to
use CBSV. However, only 66 of the companies had made advanced payments for their
estimated FY 2009 verification requests. The remaining 16 companies were in various
stages of the registration process.

SSA reopened CBSV enrollment in January 2009, and as of February 2009,
86 companies had enrolled for CBSV. All but 1 of the 86 companies paid SSA the
                                                           8
$5,000 registration fee, so SSA received $425,000 in fees. Further, only 68 of the
86 companies had paid transaction fees in advance for their FY 2009 estimated number
of verification requests. According to SSA staff, the Agency did not receive advance
payments for transaction fees from the remaining 18 companies because they were in
various stages of the CBSV registration process or they had ceased CBSV registration
activity. 9 Table 1 summarizes the changes in the actual number of CBSV registered
companies as of November 2008 and February 2009.




5
    Federal Register, Vol. 72, No. 154, 72 FR 45079, August 10, 2007.
6
 A company’s payment of the enrollment fee for CBSV was SSA’s indication of interest in the program.
SSA applies this fee to its total CBSV operating costs to reduce the actual transaction fee charged to all
CBSV participating companies for verification requests.
7
  In April 2008, SSA changed the terms under which the companies had originally enrolled. SSA originally
told the companies their $5,000 enrollment fee would be used to cover verifications in their account. SSA
later clarified that this $5,000 payment would be used to cover the Agency’s general cost of developing
CBSV, and the companies had no further rights to the $5,000. SSA sent the CBSV participating
companies an email offering them the opportunity to opt out or continue with the program. The deadline
for opting out of the program was April 15, 2008.
8
    As of February 2009, SSA was anticipating receipt of the registration fee from the other company.
9
    As of this review, SSA had not been able to contact these companies.
Page 5 - The Commissioner

                       Table 1: Number of CBSV Enrolled Companies
                                                          CBSV                        CBSV
                                                      November 2008               February 2009
                                                          (as of                 (as of Reopened
                                                     Implementation)               Enrollment)
 Number of Companies Enrolled with
 Total Fees Paid                                              66                          68
 Number of Companies Enrolled without
 Total Fees Paid                                              16                          18
 Total Enrolled Companies                                     82                          86

Estimated Transaction Fees

As of August 2007, SSA anticipated it would receive about $5.6 million based on
90 participating companies submitting about 10 million transactions. 10 SSA expected
the $5.6 million to cover the Agency’s costs for developing the CBSV program, as well
as processing verification transactions. However, as of April 2009, SSA’s total cost for
developing the CBSV program had increased to about $7.8 million.

As of November 2008, SSA’s records showed that the 82 enrolled companies had
initially estimated their total FY 2009 verification requests would be about 7 million,
resulting in about $3.9 million in transaction fees payable to SSA. However, the
estimated total number of verification requests was reduced by 48 percent to 3.6 million
verification requests because 27 companies lowered their estimated verification
requests. Therefore, SSA would have received about $2 million in transaction fees
from the companies for the 3.6 million verification requests.

As of February 2009, SSA’s records showed that 86 companies were registered for the
                11
CBSV program. The estimated total number of verification requests for these
companies was further reduced by 69 percent to 1.1 million verification requests
because 16 companies lowered their estimated verification requests. This is a total
reduction of approximately 84 percent from the initial estimate of 7 million verification
requests. SSA expects it will receive about $623,000 to process 1.1 million verification
requests. As of February 2009, the Agency had received about $522,000 from 68 of
the 86 companies to process approximately 1 million of the 1.1 million verification
requests. Table 2 summarizes the estimated transaction fees from August 2007 to
February 2009.




10
   The Agency periodically revised its fee for verification requests. In August 2007, the fee was $0.27 per
verification request, and when the program was implemented in December 2007, SSA increased the fee
to $0.32. In April 2008, SSA increased the fee to $0.56 per verification request.
11
  Five additional companies registered after November 2008, and one previously enrolled company
withdrew.
Page 6 - The Commissioner

                            Table 2: Estimated Transaction Fees
                                            August               November                  February
                                             2007                  2008                      2009
                                                         Company’s Company’s              Company’s
                                            SSA            Initial      Revised            Revised
                                          Estimate        Estimate      Estimate           Estimate
 Number of Enrolled Companies                90              82            82                 86
 Total Estimated Verification
                                         10.0 million     7.0 million      3.6 million     1.1 million
 Requests
 Estimated Total Transaction
                                        $5.6 million     $3.9 million    $2.0 million       $623,000
 Fees

Based on the reduction in the number of participating companies and estimated
verification requests, it is questionable whether SSA will be able to fully recoup the
$7.8 million for the CBSV program system development and other related program
costs. SSA is scheduled to receive about $1.1 million from the 86 companies that have
registered for CBSV ($623,000 for transaction fees and $430,000 for registration fees),
which results in about $6.7 million in unreimbursed costs. SSA expects to recoup the
remaining costs for system development, and other program-related costs by collecting
transaction fees over the depreciable life (3 years) of the CBSV program. SSA should
periodically calculate the costs for the CBSV program so fees charged to participating
companies can be adjusted.

CONSENT REQUIREMENT

Although SSA had adequate controls to test compliance with the consent requirements
for the three programs, we found that for the CBSV program, the Agency was not
complying with its policy of requiring proof of parental and legal guardianship authority
for individuals signing consent forms on behalf of minors and incompetent adults.

Comparison of Consent Requirements

For the Pilot and CBSV programs, participating companies were required to use an
approved consent form to secure authorization from individuals to obtain SSN
verifications. 12 The consent form was valid for verification for 90 days from the date of
signature. 13 SSA required that participating companies hire an independent CPA to
assess compliance with obtaining a valid consent form before verification. For both
programs, the CPAs were required to confirm the companies had (1) used the approved
consent form, (2) used the SSN verification only for the purpose indicated on the



12
     SSA, Program Operations Manual System (POMS) GN 03305.001 Disclosure with Consent.
13
  For the Pilot program, the companies were required to maintain copies of the consent forms for 3 years.
For the CBSV program, the companies were required to maintain copies for 7 years.
Page 7 - The Commissioner

consent form, and (3) obtained a valid consent from the individual signing the form. 14
We found that for the Pilot program, the four participating companies had hired
independent CPAs to determine whether they complied with the consent requirement
(we discuss this in more detail in the next section of the report). For CBSV, SSA
anticipates the CPAs will conduct annual compliance reviews and be required to submit
the audit report to SSA 30 days after the review is completed. Further, the CPAs will
provide the participating company with a copy of the report 30 days after the report is
provided to SSA.

For the IVP program, participating companies were required to use the standardized
consent form provided in the User Agreement. As with the Pilot and CBSV programs,
the consent form was valid for verification requests for 90 days from the date of
signature. However, unlike the Pilot and CBSV, SSA required that IVP-participating
companies submit copies of the consent forms with the requests. Before processing
the companies’ verification requests file data through SSA’s Enumeration Verification
                15
System (EVS), SSA conducted random sample tests on the file data to determine
whether the file contained (1) a consent form for each verification request, (2) the
proper consent form, and (3) all required information on the form. 16 SSA did not
process the verification requests if these conditions were not met.

Proof of Consent for Minors and Incompetent Adults

SSA did not establish a requirement for CBSV-participating companies to obtain proof
of a parent or legal guardian’s relationship to a minor or proof of guardianship for
incompetent adults. The lack of this requirement for participating companies is not
                                                                17
consistent with the Agency’s policy. According to SSA policy on who may consent to
disclose personal information, relating to an individual’s record, to a third party, “…in all
cases, proof of the parent’s or legal guardian’s relationship to the minor is required
before a request on behalf of the minor can be accepted from a parent or legal
guardian (e.g., a birth record showing the parent’s name or documentation from a court
of the guardian’s appointment).” The policy further directs that, “…if proof of
relationship is not established, do not disclose any information.” For incompetent
adults, the policy states, “…proof of the guardianship appointment for the incompetent
adult must accompany the consent to disclose information.” Without proof of legal
relationship, SSA has no assurance the individual who signed the consent form had the
legal right to do so.




14
  The Pilot and CBSV participating companies were responsible for hiring CPAs and bearing all costs for
the review. See Appendices E and F for the compliance review criteria for the Pilot and CBSV programs.
15
     EVS is used to verify whether the SSN, name, and DoB submitted by the reporter match SSA’s records.
16
     See Appendix D for a summary of the User Agreement conditions and specifications.
17
     POMS, GN 03305.005, Who May Consent.
Page 8 - The Commissioner

SSA did not consider proof of parental and legal guardianship authority an issue for the
Pilot and IVP programs because verification under these programs was open only to
mortgage companies and other financial institutions. However, our review of IVP
transactions for 2005 to 2008 showed that SSA verified the names and SSNs of
33 children, ranging in age from 2 to 17. Considering the CBSV program is open to any
entity that registers to use it, proof of parental and legal guardianship is an issue for this
program.

ASSESSMENT OF CPA REVIEWS AND SSA MONITORING OF CPA FINDINGS

SSA’s requirements for the compliance reviews conducted by an independent CPA
were not specific enough to ensure uniformity in reporting results. 18 Therefore, SSA
may find it difficult to rely on the CPA reports to determine whether a company has
complied with the terms and conditions of the User Agreements. Furthermore, although
SSA did not establish procedures to monitor findings addressed in the CPA reports for
the Pilot program, the Agency is developing a guide that will be used to evaluate and
monitor the CPA compliance reviews for the CBSV program.

CPA Reviews

For the Pilot program, SSA reviewed all of the four FY 2003 CPA reports and focused
on the two participating companies with the highest number of verification requests.
The CPAs who conducted the reviews were from different firms. SSA found that
although both CPA reports concluded the participating companies complied with the
terms and conditions of the User Agreement, the reports differed significantly in the way
findings related to the consent form were reported. The Agency found that one CPA
report was specific in identifying and quantifying noted discrepancies on the sample
consent forms reviewed. For example, the report specified the number of forms that
were missing the date of signature, were modified, and/or contained incomplete contact
information. The other report only indicated the participating company had obtained
signed consent forms, which complied with the User Agreement model for each of the
names and SSNs that were part of the sample. The Agency noted that the report did
not offer specifics on the completion of information contained on the form, such as
information that may have been missing in fields other than name and SSN.

We reviewed the FY 2003 CPA reports for all four Pilot-participating companies and
found that generally, the reports offered some useful information that was not required
for the review. For example, the reports identified the number of input errors,
submission of multiple SSNs, and apparent errors in SSA’s reporting on verification
results. However, the reports lacked specificity with which the CPAs reported on the
results of their review for required performance elements. Examples of how the CPA
reported on some of the performance criteria are shown in Appendix G.



18
     See Appendices E and F for the compliance review criteria for the Pilot and CBSV programs.
Page 9 - The Commissioner

Since the CBSV program requires CPA compliance reviews of participating companies,
we believe the Agency should establish specific uniform requirements for each CPA
conducting these reviews to ensure consistency in the information reported to SSA. At
a minimum, the Agency should require that CPAs specify and quantify noted
discrepancies on consent forms relative to the requirements such as those that are
missing the reason for the verification, signature and date, and contact information for
the individual signing the consent form. Capturing this type of data would help SSA
determine whether participating companies have complied with the terms and
conditions of the User Agreements.

SSA Monitoring of CPA Findings

SSA did not establish procedures to monitor findings addressed in the CPA reports for
the Pilot program because the Agency was transitioning from the Pilot to
implementation of the IVP program, which did not require a CPA review. As stated
earlier, for the IVP program, participating companies were required to submit
verification requests and copies of the associated consent forms to SSA. The Agency
was responsible for assessing the forms’ compliance with requirements established in
the IVP User Agreement. However, for the CBSV program, the Agency requires that
participating companies hire an independent CPA to assess the company’s compliance
with the terms and conditions of the CBSV User Agreement and specifically the consent
requirement. According to SSA staff, the Agency is developing a guide to evaluate and
monitor the CPA compliance reviews. At the time of our review, the guide had not been
completed. We believe the Agency should ensure it develops the guide for monitoring
findings addressed in the CPA reports for the Agency to capture trends that may
identify the need for changes in the contractual provisions of the CBSV User
Agreements, or cancel or suspend a company who does not comply with the terms and
conditions of the User Agreement.

DOB REQUIREMENT FOR VERIFICATION

SSA did not use the DoB as part of the matching criteria for the CBSV program, which
could lead to SSA providing false positive responses to participating companies.
Further, it increases the risk that SSA will not detect instances of SSN misuse.

Providing the DoB on consent forms was required for the Pilot and IVP programs. For
these programs, the DoB was also part of the programs’ verification matching criteria
and thus was a mandatory data input element for the Pilot and IVP processing
system. 19 SSA’s process for SSN verification for CBSV required that the DoB of the
individual for whom verification was being sought be provided on the consent form.
However, it did not require that participating companies submit the DoB as part of the
verification request. The Agency’s mandatory input elements for CBSV included only
19
  SSA used its EVS to determine whether a name and SSN provided for verification under the Pilot and
IVP programs matched SSA’s records. The criteria on which EVS matches include an individual’s name,
SSN and DoB. If a verification request does not include all these elements, EVS renders a “no match.”
Page 10 - The Commissioner

the individual’s name and SSN. The DoB was noted as an optional data input field for
CBSV verifications in the User Guide provided to the participating companies. SSA
                                                                20
uses the Social Security Number Verification Service (SSNVS) to determine whether
a name and SSN provided for verification under the CBSV program matched its
records. The matching criterion for SSNVS does not require the DoB.

According to SSA staff, the Agency eliminated the DoB requirement for CBSV to clarify
that the CBSV program did not provide identity verification. 21 However, we believe that
by eliminating the DoB as a mandatory data element for CBSV, SSA increases the risk
it may provide false positive responses to participating companies. Our review of the
IVP transactions for 2005 to 2008 showed that when the DoB was included as part of
the matching criteria, SSA provided the appropriate response to the participating
companies. For example, a company submitted a name and SSN that matched SSA
records, but the DoB did not match. The company had mistakenly replaced the year of
birth with the year the request was made. In this case, SSA provided a no-match
response. The company realized the error and resubmitted the verification request with
the correct DoB. SSA provided a match response. We believe using the DoB as part
of the CBSV matching criteria will provide more assurance the submitted name and
SSN belong to an individual. Without the DoB, there is an increased risk that SSA may
not detect instances of SSN misuse.

CONCLUSIONS AND RECOMMENDATIONS
The results of our audit indicate that a number of the control processes used in the Pilot
and IVP programs are also used in the CBSV. The Pilot, IVP, and CBSV programs
have not only given companies a means for efficient verification of large numbers of
SSNs, but the programs have also benefited SSA by reducing the burden on field office
resources to process the high volume of verification requests. Furthermore, the
programs have given SSA the ability to manage an increasing workload more
efficiently. However, based on our review, we believe SSA needs to take steps to
strengthen its controls over the CBSV program to ensure (1) the Agency is reimbursed
for the total costs of the program, (2) compliance with current policy for consent for
minor and incompetent adults, (3) uniformity with reporting requirements for CPA
compliance reviews, and (4) the matching criteria are sufficient to reduce the risk of
providing false positive responses.




20
  SSNVS is an on-line service offered to employers and certain third-party submitters to verify employee
names and SSNs against SSA’s records.
21
  CBSV provides a match, no match, or death response for names and associated SSNs submitted for
verification. The User Agreement between SSA and each participating company specified that, “CBSV
does not verify employment eligibility nor does it interface with the Department of Homeland Security
verification system.”
Page 11 - The Commissioner

Accordingly, we recommend SSA:

1. Periodically calculate the costs for the CBSV program so that fees charged to
   participating companies can be adjusted.

2. Require that CBSV-participating companies obtain proof of parental and legal
   guardianship authority from individuals signing consent forms for SSN verification on
   behalf of minors and incompetent adults, as required by SSA policy.

3. Develop specific requirements for the compliance reviews conducted by
   independent CPAs to ensure uniformity in reporting results. At a minimum, require
   that CPAs specify and quantify noted discrepancies on consent forms or state that
   there were no noted discrepancies on consent forms, if applicable.

4. Establish written procedures (guide) that will allow the Agency to effectively evaluate
   and monitor the compliance reviews conducted by independent CPAs.

5. Require that participating companies submit the DoB as part of their verification
   request for the CBSV program.

AGENCY COMMENTS

SSA agreed with our recommendations. The full text of the Agency’s comments is
included in Appendix H.




                                                    Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Consent- and Fee-Based Verification Programs

APPENDIX D – Summary of the Consent Requirements

APPENDIX E – Pilot Compliance Review Criteria

APPENDIX F – Consent-Based Social Security Number Compliance Review Criteria

APPENDIX G – Examples of Certified Public Accountant Findings

APPENDIX H – Agency Comments

APPENDIX I – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
CBSV     Consent Based Social Security Number Verification
CPA      Certified Public Accountant
DoB      Date of Birth
EVS      Enumeration Verification System
FR       Federal Register
FY       Fiscal Year
IVP      Interim Verification Process
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
SSN      Social Security Number
SSNVS    Social Security Verification Service
U.S.C.   United States Code
                                                                                  Appendix B
Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable Federal law and regulations, as well as the Social Security
    Administration’s (SSA) policies and procedures as they relate to privacy and
    disclosure of personal information maintained in SSA’s official records.

•
                                                                            1
    Reviewed the Intelligence Reform and Terrorism Prevention Act of 2004 for policy
    on the requirement for SSA to add death and fraud indicators to its Social Security
    number (SSN) verification systems.

•   Reviewed policies and procedures regarding SSA’s development of its consent- and
    fee-based SSN verification programs.

•   Reviewed User Agreements established between SSA and companies participating
    in the Pilot, Interim Verification Process (IVP), and Consent Based Social Security
    Number Verification (CBSV) programs.

•   Reviewed User Guides provided to Pilot, IVP and CBSV participating companies.

•   Reviewed management reports on companies enrolled for the CBSV service.

•   Reviewed Reimbursable Agreements covering verification transaction fees for IVP
    and CBSV participating companies.

•   Gained an understanding of SSA’s Pilot, IVP and CBSV verification processes.

•   Obtained verification requests and results data for IVP participating companies for
    Fiscal Years 2005 through 2008.

We determined the IVP data used for this audit were sufficiently reliable to meet our
objective. The Office of Central Operations was responsible for managing the IVP
program. The Office of Public Service and Operations Support is responsible for
managing the CBSV program. Both of these offices are under the Deputy
Commissioner for Operations. Our work was conducted at the Philadelphia Audit
Division, Philadelphia, Pennsylvania, between July 2008 and February 2009. We
conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require we plan and perform the audit to obtain


1
  Public Law 108-458 § 7213, the Intelligence Reform and Terrorism Prevention Act of 2004, signed into
law by President Bush on December 17, 2004.


                                                  B-1
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objective.




                                        B-2
                                                                                  Appendix C

Consent- and Fee-Based Verification Programs
Since October 2002, the Social Security Administration (SSA) has assisted companies
that provide identity verification services for mortgage companies and financial
institutions by confirming the name and Social Security number (SSN) provided match
SSA’s records. To provide registered companies a vehicle for purchasing SSN
verifications, the Agency developed a centralized and automated process that could
quickly respond to verification requests. This process also helps SSA by reducing the
burden on field offices’ resources to process the many verification requests. Since its
inception, there have been three iterations of the program. The initial program was the
Agency’s pilot consent- and fee-based SSN verification program, Social Security
Number Verification Pilot for Private Businesses (Pilot), which began in October 2002
and ended in February 2005. It was replaced in March 2005 with the Interim
Verification Process (IVP) that ended in November 2008. IVP was replaced with the
current Consent Based Social Security Number Verification (CBSV) program.

PILOT PROGRAM

SSA requires that participating companies sign a User Agreement 1 with the Agency and
obtain written consent from the individual for whom verification would be requested
before requesting verification from SSA. Four companies participated in this Pilot
program and were required to pay a fee of $40,000 to assist with the Agency’s start-up
costs, as well as pay advanced transaction fees--$.26 per verification and $.0047 per
record—for their total estimated annual verification requests. SSA received about
$160,000 for the start-up costs; however, it was not able to provide us with the amounts
received in transaction fees from these companies. During Fiscal Years (FY) 2003 to
2005, SSA processed about 551,000 verification requests submitted by the
4 participating companies. As shown in Table C-1, the Agency was able to verify
89 percent of the submitted names and SSNs, but did not verify 11 percent of the
submitted names and SSNs.

        Table C-1: Summary of Verifications Submitted for the Pilot Program
         Response         FY 2003       FY 2004          FY 2005      Total        Percent
        Verified            71,455       261,042         159,651    492,148           89
        Not Verified         9,215        31,189          18,724     59,128           11
        Total               80,670       292,231         178,375    551,276           100




1
 The User Agreement established the conditions, terms, and safeguards for SSA to provide verification of
SSNs to registered companies.


                                                   C-1
IVP PROGRAM

SSA required that participating companies sign a User Agreement with SSA and obtain
written consent from the individual before requesting verification through SSA.
Registered companies were required to pay a one-time registration fee and advanced
transaction fees for their estimated annual verification requests. From FYs 2005
through 2007, the IVP program required manual submission of verification requests with
consent forms and charged companies a one-time registration fee of $77 and a
transaction fee of $157 to process verification requests. In FY 2008, the IVP program
required electronic submission of verification requests and charged each company a
one-time registration fee of $381 and a transaction fee of $157. There were
11 companies (including the 4 Pilot companies) registered for this program. As of
FY 2008, only 7 of the 11 registered companies had submitted verification requests. As
shown in Table C-2, during FYs 2005 to 2008, the 7 companies submitted about
1.9 million verification requests to SSA. SSA verified 92 percent of the submitted
names and SSNs, but did not verify 8 percent of the submitted names and SSNs.
Further, SSA received about $700,000 from the 7 companies for their verification
transactions for FYs 2006 through 2008. 2

            Table C-2: Summary of Verification Submitted for the IVP Program
      Response         FY 2005      FY 2006      FY 2007       FY 2008        Total      Percent
     Verified            292,356      513,167      500,406      396,880      1,702,809     92
     Not Verified         29,507       50,606       47,269       27,341        154,723      8
     Total               321,863      563,773      547,675      424,221      1,857,532     100
     Death                N/A          N/A              27           19             46

CBSV PROGRAM

In November 2008, SSA replaced the IVP program with the CBSV. However, unlike the
previous programs, CBSV is available to all private businesses and Federal, State, and
local government agencies. 3 For CBSV, participating companies are also required to
sign a User Agreement, pay a one-time non-refundable registration fee of $5,000, and
pay an advance transaction fee of $.56 per verification request. Further, participating
companies are required to obtain written consent from the individual (or the individual’s
legal guardian) before verifying the individual’s SSN through CBSV. As of
February 2009, 86 companies were enrolled and SSA received about $947,000 in
registration and transaction fees from these companies.




2
    SSA could not provide us the amount it received from the companies for FY 2005.
3
 Although CBSV is open to government agencies, at the time our review, none had registered to use the
program.


                                                    C-2
                                                                                       Appendix D

Summary of the Consent Requirements
Table D-1 provides a summary of the consent requirements the Social Security
Administration (SSA) established for the Pilot, Interim Verification Program (IVP), and
Consent Based Social Security Number Verification (CBSV) programs. For all three
programs, participating companies were required to use an approved consent form to
secure authorization from individuals to obtain Social Security number verifications.
The consent form was valid for verification for 90 days from the date of signature. For
the Pilot and CBSV programs, to assess each company’s compliance with obtaining a
valid consent form prior to verification, SSA required that participating companies hire
an independent certified public accountant (CPA) to conduct a compliance review. For
the IVP program, participating companies submitted the consent forms to SSA who
determined whether (1) a consent form was provided for each verification request, (2) a
valid consent form was used, and (3) all required information was included on the form.
SSA did not process the verification requests if these conditions were not met.

                                  Table D-1: Consent Requirement
    User Agreement
      Condition                                 User Agreement Specification
                                          Pilot             IVP              CBSV

 Consent Form                      Company designed           Company designed
                                   form, but required         form, but required        SSA standardized
                                     SSA approval               SSA approval                  form

                            1
Consent Form Expiration                  90 days                    90 days                   90 days
Consent Form Submitted
                                              2                            3                       2
to SSA with Verification                   No                        Yes                        No
Requests
Participating Company’s
Consent Form Retention            3 years from date of                N/A              7 years from date of
Requirement                           verification                                         verification
Independent CPA
Compliance Review
Required                                   Yes                        N/A                       Yes
Notes
1. This was the expiration date unless the individual signing the consent form clearly indicated otherwise.
2. Consent form maintained by company. SSA required CPA compliance review of company to assess
   compliance with consent form requirements and other User Agreement terms and conditions.
3. Copies of consent forms submitted to SSA along with the verification requests. Before processing
   verification requests file data through SSA’s system, the Agency conducted random sample tests on
   the file data to determine if the file contained (1) a consent form for each verification request, (2) the
   proper consent form, and (3) all required information on the form.
                                   Appendix E

Pilot Compliance Review Criteria
E-1
E-2
                                     Appendix F

Consent Based Social Security Number
Verification Compliance Review Criteria
F-1
F-2
F-3
                                                                                     Appendix G

Examples of Certified Public Accountant
Findings
We reviewed the Fiscal Year 2003 certified public accountant (CPA) reports for all four
of the Pilot participating companies and found that generally, the reports offered some
useful information that was not required for the review. For example, the reports
identified the number of input errors, submission of multiple Social Security numbers
(SSN), and apparent errors in the Social Security Administration’s (SSA) reporting on
verification results. However, the reports lack specificity with which the CPAs reported
the results of their reviews for required performance elements. Table G-1 provides
examples of how the CPAs reported on some of the performance criteria.

          Table G-1: Examples of CPA Findings for the Four Pilot Companies
   Performance Criteria                                         Companies1
                                           1                  2                  3                 4
Company used the approved           Specified and    Addressed only      Specified and    Addressed only
consent form.                       quantified       that the consent    quantified       that the consent
                                    discrepancies.   forms agreed        discrepancies.   forms agreed
                                                     with SSA’s                           with SSA’s
                                                     model consent                        model consent
                                                     form.                                form.
Company complied with               Specified and    Specified that      Specified and    Specified and
consent form expiration for         quantified       consent forms       quantified       quantified
submitting verification requests    discrepancies.   were signed         discrepancies.   discrepancies.
to SSA.                                              within 90 days of
                                                     verification
                                                     requests.
Company used the SSN                Obtained         Stated that     Stated that          Not addressed
verification only for the purpose   written          requesting      verifications        in CPA report.
indicated on the consent form.      representation   company         were for
                                    from             confirmed use ofpurposes
                                    company.         verifications.  stated on the
                                                                     consent forms.
Note: 1. The companies are in order by volume of verification requests.
                  Appendix H

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      July 01, 2009                                                           Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn      /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Consent-based Social Security Number
           Verification Program” A-03-08-18067)—INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendations.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                          H-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“CONSENT-BASED SOCIAL SECURITY NUMBER VERIFICATION PROGRAM”
(A-03-08-18067)

The Consent-Based Social Security Number Verification (CBSV) program is a reimbursable
project and changes resulting from these recommendations may result in a change in cost to
CBSV users.

Our responses to your specific recommendations are as follows.

Recommendation 1

Periodically calculate the costs for the CBSV program so fees charged to participating companies
can be adjusted.

Comment

We agree. We have had this process in place since the inception of the CBSV program. The
CBSV User Agreement, Section X, Cost of Services (page 9) states: “Periodically, but no less
frequently than annually, SSA will recalculate its costs related to providing the services in this
User Agreement and will adjust the fees charged accordingly.” We will continue to follow this
agreement and make any necessary fee adjustments.

Since its inception, we have adjusted the price of CBSV three times. In August 2007, when we
instituted the CBSV program, we charged $0.27 per verification request. In December 2007, we
increased the price to $0.32, and in April 2008, we adjusted the price to $0.56 per verification
request.

Recommendation 2

Require that CBSV-participating companies obtain proof of parental and legal guardianship
authority from individuals signing consent forms for Social Security number (SSN) verification
on behalf of minors and incompetent adults as required by our policy.

Comment

We agree. We will take the necessary steps to make this change. However, we may have to
obtain Office of Management and Budget (OMB) approval prior to making the necessary
amendments to the User Agreement.

Recommendation 3

Develop specific requirements for the compliance reviews conducted by independent Certified
Public Accountants (CPA) to ensure uniformity in reporting results. At a minimum, require that



                                                H-2
CPAs specify and quantify noted discrepancies on consent forms or state that there were no noted
discrepancies on consent forms, if applicable.

Comment

We agree. We will incorporate these instructions into our planned CBSV Compliance Review
Handbook. As mentioned in our earlier comment, we may have to obtain OMB approval prior to
making the necessary amendments to the User Agreement.

Recommendation 4

Establish written procedures (guide) that will allow the agency to effectively evaluate and
monitor the compliance reviews conducted by independent CPAs.

Comment

We agree. We will incorporate these instructions into our planned CBSV Compliance Review
Handbook. Again, we may have to obtain OMB approval prior to making the necessary
amendments to the User Agreement.

Recommendation 5

Require that participating companies submit the date of birth as part of their verification request
for the CBSV program.

Comment

We agree. We will take the necessary steps to make this change. As with the other
recommendations, we may have to obtain OMB approval prior to making the necessary
amendments to the User Agreement.




                                                H-3
                                                                      Appendix I

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Cylinda McCloud-Keal, Director, Philadelphia Audit Division

   Carol Madonna, Audit Manager

Acknowledgments

In addition to those named above:

   Brenda Williams, Auditor-in-Charge

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-03-08-18067.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
